November 13, 2008

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Security Policies and Procedures (Corporate-Wide) at the
         Information Technology and Accounting Service Centers for Fiscal
         Year 2008 (Report Number IS-AR-09-002)

This report presents the results of our audit of corporate-wide security planning and
program management at the U.S. Postal Service’s Information Technology and
Accounting Service Centers (IT/ASCs) located in xxxxx, xxxxxxxxx; xxx xxxxx,
xxxxxxxxxx; xxx xxx xxxxxx xxxxxxxx (Project Number 08RD001IS003). The objectives
were to determine whether management established a framework and continuing cycle
of activity for assessing risk, developing and implementing effective security
procedures, and monitoring the effectiveness of these procedures. We performed this
self-initiated review as part of the fiscal year (FY) 2008 information systems audit of
general controls at IT/ASCs. See Appendix A for additional information about this audit.

Conclusion

Overall, management has established information security policies and procedures to
protect critical and sensitive information resources. These include, but are not limited
to, implementing the components of a security management structure and including
security procedures in hiring and termination practices. However, our review identified
opportunities to improve compliance with these policies and procedures. Specifically,
management can improve personnel policy controls by initiating security clearance
processing for all employees occupying sensitive positions. In addition, management
could improve their identification of threats and vulnerabilities to computing resources
by performing periodic application risk assessments.
Security Policies and Procedures (Corporate-Wide) at the                                              IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008


Security Clearances

Management did not perform security clearance processing for nine of 454 Postal
Service career IT employees in “sensitive” positions.1 This occurred because Corporate
Personnel Management employees were unsure of policies and responsibilities for
initiating security clearance processing for positions classified as sensitive. Performing
security clearances protects sensitive and critical Postal Service resources from
potential loss and ensures that only reliable and trustworthy individuals access these
resources. When we brought this issue to management’s attention, they took corrective
action to initiate the nine security clearances. See Appendix B for our detailed analysis
of this topic.

We recommend the Vice President, Human Resources, direct the Manager, Corporate
Personnel Management, to:

1. Develop a process to ensure security clearances are initiated for individuals in
   positions classified as sensitive.

2. Provide reports to the Security Control Officer on a semi-annual basis to track the
   security clearance status of employees in sensitive positions at the xxxxx,
   xxxxxxxxx; xxx xxxxx, xxxxxxxxxx; xxx xxx xxxxx, xxxxxxxx Information Technology
   and Accounting Service Centers.

System and Application Reviews

Management could not provide documentation to verify they had completed a current
risk assessment on the six applications2 we reviewed. This occurred because
employees did not conduct or document risk assessments or the re-assessments that
are required every 3 years as defined by Security Risk Management policy.3
Performing risk assessments on a timely basis ensures the Postal Service develops
adequate security measures to protect existing information resources. See Appendix B
for our detailed analysis of this topic.




1
  Handbook AS-805, Information Security, March 2002 (updated with Postal Bulletin revisions through November 23,
2006), Section 6-4.1, states that sensitive positions, as defined in the Administrative Support Manual (ASM) 27,
Security, include those in which personnel could, in the normal performance of their duties, cause material adverse
effect to Postal Service information resources. xxx xxxxxxxx xxxxxxxxx xxxxxxxx xxxxxxxxx xxx xxxxxxxxxxx (xxx
xxxxxxxxxxx xxx xxx xxxxxx xxxxxxxxx).
2
  xxx xxxxxxxxxxxx xx xxxxxxxx xxxx xxx xxxxxxxx xxxx xxxxxxxxxx xxxxxx (xxxx); xxxxxxxxxx xxxxxx xxxxxx
(xxxxxxx); xxxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxx (xxxx); xxxxxxx xxxxxxxx xxxxxx; xxxxx xxxxxxxx xxxxxxxxxx
xxxxxx; xxx xxxxxxxxx.
3
  Information Technology (IT) Manual, Security Risk Management Policy, Information Resource Risk Management,
dated March 25, 2008, states that risk assessments must be re-assessed and the risk assessment report updated at
least every 3 years following deployment of a resource unless earlier re-assessment is warranted.




                                                         2
Security Policies and Procedures (Corporate-Wide) at the                         IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

We recommend the Vice President, Information Technology Operations, direct the
Manager, Corporate Information Security, to:

    3. Perform risk re-assessments on the xxx applications reviewed during this audit.

    4. Establish milestones to review all sensitive and critical applications for current
       risk assessments and complete the re-assessments on those applications that
       are not current.

Management’s Comments

The Vice President, Employee Resource Management, agreed with recommendation 1
and stated Corporate Personnel Management would work with the Postal Inspection
Service to ensure that a process is in place to initiate the necessary sensitive security
clearances by January 15, 2009. Management stated they agree with the intent of
recommendation 2 and will work with the Postal Inspection Service to ascertain the best
process for providing information to the Security Control Officer (SCO).

The Vice President, Information Technology Operations, agreed with
recommendations 3 and 4. For recommendation 3, the Corporate Information Security
Office (CISO) will work with the appropriate Information Technology Business Systems
portfolios to complete risk assessments by xxx xx, xxxx, for the six applications
reviewed during this audit. Concerning recommendation 4, management will establish a
risk reassessment schedule by December 31, 2008, and will complete the risk
reassessments by xxxxxxxx xx, xxxx. See Appendix C for management comments in
their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report.




                                                    3
Security Policies and Procedures (Corporate-Wide) at the                    IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Ross Philo
    Harold Stark
    Joseph J. Gabris
    Elizabeth Hepner
    Katherine S. Banks




                                                    4
Security Policies and Procedures (Corporate-Wide) at the                                          IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A corporate-wide security program is the foundation of an organization’s security control
structure and a reflection of senior management’s commitment to addressing security
risks. Handbook AS-8054 establishes the Postal Service’s information security policies
for appropriately identifying information resources and business requirements and
protecting those information resources. The intent of information security policies is to
ensure the creation and implementation of an environment that:

    •   Protects information resources critical to the Postal Service;
    •   Protects information as mandated by federal laws;
    •   Protects the personnel information and privacy of employees and customers;
    •   Reinforces the reputation of the Postal Service as an institution deserving public
        trust;
    •   Complies with due diligence standards for the protection of information
        resources; and,
    •   Assigns responsibilities to relevant Postal Service officers, executives,
        managers, employees, contractors, partners, and vendors.

The Postal Service has delegated the Manager, Corporate Information Security,
authority for the development, implementation, and management of the information
security program.5

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives were to determine whether management established a framework and
continuing cycle of activity for assessing risk, developing and implementing effective
security procedures, and monitoring the effectiveness of these procedures.

The scope of our review included corporate-wide security policies and procedures at the
U.S. Postal Service’s IT/ASCs located in xxxxx, xxxxxxxxx; xxx xxxxx, xxxxxxxxxx; xxx
xxx xxxxx, xxxxxxxx.




4
  Handbook AS-805 has been incorporated into the new Information Technology (IT) Manual, Corporate Information
Security, March 25, 2008. xxx xxxxxx xx xxxxxxx xx xxx xxx xx xxxxxxx (xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx),
xxxxx xx xxx xxx xxxxxxx xxxxxxxxxx xxx xx-xxxxxxx xxxxxxxxxxx, xxxxxxxx, xxxxxxxxx, xxx xxxxxxxxx.
5
  IT Manual, Corporate Information Security, Roles and Responsibilities, March 25, 2008.




                                                       5
Security Policies and Procedures (Corporate-Wide) at the                                                   IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

Our review covered the main platforms the Postal Service uses in its computing
environment.6 We judgmentally selected the following six applications to review for FY
2008.7

    •    xxxxxxxx xxxx xxxxxxxxxx xxxxxx – xxxxxxxx xxxxxxxxxxx xxxxxxxxx xx
         xxxxxxx xxxxxxxxxxxxxx xx xxxxxxx xxxx xxx xx xxxxxxxxxx xxxxxxx xxx
         xxxxxxxx xxxxxxx xxx xxxxxxxxxxx xxxx.
    •    xxxxxxxxxx xxxxxx xxxxxx – xxxxxx xxxxxx xxxxxxx xxxxxxxxx xx xxxxxxxx
         xxxxxxxx xxxxx-xxxxxxx xxxx xxxxxx.
    •    xxxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxx – xxxxxxxx xxx xxxxx xxxxxx xxxxx
         xx xxxxxxxx xxx xxxxxxxxxxxxx xxxxxxx xxxl®, xxxxxxxxx xxx xxxxxxx xxxxxx
         xxx xxxxxxx xxxxxxxxxxx xx xxxx xxxxx xx x xxxxx xxxxx.
    •    xxxxxxx xxxxxxxx xxxxxx – xxxxxxxx x xxxxxxxxxx xxxxxxxxxxxxxx xxx
         xxxxxxxxxx xxx xxxxxxxxx xxxx xx xxx xxxxxxxx xxxxxxxx xxxxxx xx x xxxxxxxx.
    •    xxxxx xxxxxxxx xxxxxxxxxx xxxxxx – xxxxxx xxxxx xxxxx xxxxxxxx xx xxxxxx
         xxxxxxxx xxxxxxxxxxx xx xxxxxxx xxxx xxxxxxx xxxxxxxx.
    •    xxxxxxxxx – xxxxxxxx xxxxxx xxxxxxx xxxxxxxxxx xxx xxxxxxxxxxxxx
         xxxxxxxxxx xxxxxxxx xxx xxxxxxxxx xxxx xxxxxxxxxxx xxx xxxxxxxxxx.

To determine if management performed, documented and updated risk assessments for
the selected applications on a regular basis, we reviewed security risk management and
IT recertification policies and procedures, interviewed key Postal Service personnel, and
reviewed risk assessment documentation.

To determine if management documented, approved, and periodically reviewed security
plans for the selected applications, we interviewed key Postal Service personnel and
reviewed documentation.

To determine if management has established a security management structure, we
reviewed documentation detailing the roles and responsibilities associated with Postal
Service information security. To verify that management clearly assigned information
security responsibilities, we reviewed the Postal Service’s Information Security Plan,
which identifies the owners and managers of computer resources. To determine if
owners and users were aware of security policies, we interviewed system owners to
determine what training employees had received and whether they were aware of their
security-related responsibilities. To determine if management implemented an incident
response capability, we interviewed management officials and reviewed an incident
handling activity.

To determine if hiring policies address security, we reviewed Postal Service policies,
interviewed key Postal Service personnel, and reviewed sensitive positions to determine

6
  xxx xxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxx xxxxxxxxx xxxxxxx xxxxxxxxx, xxxx, xxxxxxx, xxx, xxx xxxxxx.
7
  The criteria for selection included a system or application that is financial or directly supports the financial
statements; has a nationwide impact; is classified sensitive or critical while in production; was not recently reviewed
by an OIG or Ernst & Young audit team; and is identified as Sarbanes-Oxley related.




                                                            6
Security Policies and Procedures (Corporate-Wide) at the                    IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

whether management had performed security clearances. To determine if termination
policies address security, we reviewed Postal Service policies and interviewed key
Postal Service personnel. To verify that employees have adequate security training, we
reviewed the Postal Service’s employee training and professional development
program.

We conducted this performance audit from February through November 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We used manual and
automated techniques to analyze computer-processed data. Based on the results of
these tests and assessments, we generally concluded that the data were sufficient and
reliable to use in meeting the objectives. We discussed our observations and
conclusions with management officials during the audit and on October 1, 2008, and
included their comments where appropriate.




                                                    7
    Security Policies and Procedures (Corporate-Wide) at the                              IS-AR-09-002
     Information Technology and Accounting Service Centers
     for Fiscal Year 2008

    PRIOR AUDIT COVERAGE

                         Report              Final Report
  Report Title           Number                  Date                       Report Results
Separation of          IS-AR-07-017       August 29, 2007      Overall policies, procedures, and internal
Duties at the                                                  controls were adequate to separate duties
xxxxx, xxxxxxxxx;                                              for personnel accessing critical information
xxx xxxxx,                                                     system resources at the data centers.
xxxxxxxxxx; xxx                                                However, controls to determine which
xxx xxxxx, xxxxxxx                                             career employees required sensitive
Information                                                    security clearances needed strengthening.
Technology and                                                 Specifically, management did not always
Accounting                                                     review and update the classification of
Service Centers                                                sensitive positions for employees at the
                                                               three IT/ASCs in a timely manner. Also,
                                                               some ASC career employees had
                                                               sensitive security clearances, while other
                                                               ASC employees in similar positions did
                                                               not. Management agreed with all five
                                                               recommendations and all remain open
                                                               because action has not been completed.
Personnel Security     IS-AR-04-011       September 8, 2004    Internal controls over hiring and
Controls at the                                                termination procedures for Postal Service
xxxxx, xxx xxxxx,                                              employees and contractors were generally
xxx xxx xxxxx                                                  effective. There were no exceptions in the
Information                                                    review of initial security clearances and
Technology and                                                 updates for contractors; however, security
Accounting                                                     clearance updates were not obtained for
Service Centers                                                20 Postal Service career employees
                                                               holding sensitive positions at the xxx xxxxx
                                                               xxx xxx xxxxx IT/ASCs. Management
                                                               completed corrective action for the
                                                               recommendation and this issue is closed.




                                                        8
Security Policies and Procedures (Corporate-Wide) at the                                                 IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

                                 APPENDIX B: DETAILED ANALYSIS

Security Clearances

Nine of 4548 career employees in IT positions classified as “sensitive” did not have
security clearances. In order to determine which IT positions at the xxxxx IT/ASCs
require a security clearance, the SCO refers to the Information System Sensitive
Position Register. The register lists all current IT positions and occupation codes for
positions classified as sensitive. The SCO is responsible for maintaining a security
clearance database for career and contract employees at the xxxxx, xxxxxxxxx; xxx
xxxxx, xxxxxxxxxx; xxx xxx xxxxx, xxxxxxxx IT/ASCs.9 The Postal Service uses this
database to track interim, final, and updated sensitive security clearances10 for current
career employees and contractors in sensitive positions. The Postal Inspection Service
is responsible for conducting background investigations and granting security
clearances11 for Postal Service career employees and contractors.12

We requested current information on the status of security clearances; in providing this
information to us, the SCO compared the current Human Resource staffing report to the
security clearance database and identified nine employees who did not have security
clearances. One employee was a new hire and all but two of the remaining eight had
been promoted into sensitive positions since 2005. Corporate Personnel Management,
which handles Executive Administrative Services hires and promotions, assumed the
CISO office was responsible for the initial security clearance documentation for IT
sensitive positions.

When an employee accepts a career position with the Postal Service, Corporate
Personnel Management is responsible for providing the initial security clearance
documentation and instructions. They forward this information to the Postal Inspection
Service, Operations Support Group (ISOSG), Security Investigation Service Center, for
processing. The ISOSG grants the interim clearance within 10 days of receiving the
paperwork and the final clearance follows the full background review. The ISOSG
forwards notification of the interim and final security clearances to the SCO, who uses
this information to update the security clearance database.


8
   xxx xxxxxxxx xxxxxxxxx xxxxxxxx xxxxxxxxx xxx xxxxxxxxxxx (xxx xxxxxxxxxxx xxx xxx xxxxxx xxxxxxxxx).
9
   This requirement was established based on the audit, Personnel Security Controls at the xxxxx, xxx xxxxx, xxx xxx
xxxxx IT/ASCs (Report No. IS-AR-04-011, dated September 8, 2004). Management expanded the security clearance
database used by the SCO in xxxxx to include employees assigned to sensitive positions at the xxx xxxxx xxx xxx
xxxxx IT/ASCs.
10
    ASM 13, Section 272.22, July 1999 (updated with Postal Bulletin revisions through September 27, 2007) states that
sensitive clearances are considered for Postal Service employees who, by virtue of their duties, have access to
sensitive information restricted to the highest levels of the federal government or OIG files, Postal Inspection Service
files, national security (classified) information, or sensitive information essential to executive decision making.
11
    IT Manual, Corporate Information Security, Roles and Responsibilities, page 2, March 25, 2008.
12
    ASM 13, Section 272.3, July 1999 states that individuals who provide contract services to the Postal Service
(including contractors, contractors’ employees, subcontractors, and subcontractors’ employees at any tier) and who
have access to occupied Postal Service facilities and/or to Postal Service information and resources (including postal
computer systems) must obtain a clearance as provided in Section 272 before getting access.




                                                           9
Security Policies and Procedures (Corporate-Wide) at the                                            IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

System and Application Reviews

Management could not provide documentation to verify they had completed risk
assessments for the six applications we reviewed. When we requested support to
determine if the risk assessments were performed and documented on a regular basis,
management stated they could not locate all of the documents but would provide any
documentation available. According to Postal Service policy, a risk assessment is
required for all information resources and will be performed in conjunction with system
development. Further, risk assessments must be updated at least every 3 years
following the deployment of an information resource.13 We requested documentation to
verify that the re-assessments were current and that management had updated them
every 3 years. Management provided documentation for three of the six systems
reviewed – xxxx, xxxx xxxxxxxx xxxxxxxx xxxx; xxxxxxx, xxxx xxxxxxxx xxxxxxx xxxx;
xxx xxxxxxx, xxxx, xxxx xxxxxxxx xxxxxxxx xxxx. Based on our review of those
documents, the required re-assessments had not been performed.

Recertification re-evaluates the protection of existing resources to determine if the risk
associated with deployment can be managed throughout the lifecycle of the resource.14
It is the responsibility of the CISO to re-assess and re-certify information resources.

Performing risk assessments helps make certain that management identifies and
considers all threats and vulnerabilities, identifies the greatest risks, and makes
appropriate decisions regarding which risks to accept and which to mitigate through
security controls.




13
   IT Manual, Corporate Information Security, Policy, Processes, and Standards, Security Risk Management Policy,
March 25, 2008.
14
   IT Manual, Corporate Information Security, Recertification Process, March 25, 2008.




                                                       10
Security Policies and Procedures (Corporate-Wide) at the   IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008

                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                   11
Security Policies and Procedures (Corporate-Wide) at the   IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008




                                                   12
Security Policies and Procedures (Corporate-Wide) at the   IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008




                                                   13
Security Policies and Procedures (Corporate-Wide) at the   IS-AR-09-002
 Information Technology and Accounting Service Centers
 for Fiscal Year 2008




                                                   14
